   QUALITY CONTROL REVIEW OF
     CONSOLIDATED FINANCIAL
STATEMENTS FOR FY 2008 AND FY 2007
        Department of Transportation

        Report Number: QC-2009-009
       Date Issued: November 14, 2008
           U.S. Department of
                                                            Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Quality Control Review of Audited                               Date:    November 14, 2008
           Consolidated Financial Statements for
           Fiscal Years 2008 and 2007, DOT
           Report Number: QC-2009-009

  From:    Calvin L. Scovel III                                                 Reply to
                                                                                Attn. of:   JA–20
           Inspector General

    To:    The Secretary

           I respectfully submit the Office of Inspector General’s (OIG) Quality Control
           Review report on the Department of Transportation’s (DOT) audited Consolidated
           Financial Statements for Fiscal Years (FY) 2008 and 2007.

           The audit of DOT’s Consolidated Financial Statements as of and for the year
           ended September 30, 2008, was completed by KPMG LLP, of Washington, D.C.
           (see Attachment), under contract to OIG. We performed a quality control review
           of the audit work to ensure that it complied with applicable standards. These
           standards include the Chief Financial Officers Act, as amended; Generally
           Accepted Government Auditing Standards; and Office of Management and Budget
           Bulletin 07-04, “Audit Requirements for Federal Financial Statements,” as
           amended.

           KPMG concluded that the consolidated financial statements present fairly, in all
           material respects, the financial position of the U.S. Department of Transportation
           as of September 30, 2008, and its net costs, changes in net position, and budgetary
           resources, for the year then ended, in conformity with U.S. generally accepted
           accounting principles. OIG audited last year’s DOT consolidated financial
           statements, and we also expressed an unqualified opinion on those statements. 1

           We congratulate the Department for reaching a significant milestone this year.
           The DOT consolidated financial statements have been audited since FY 1996, and
           DOT this year received the best outcome yet - an unqualified (clean) audit opinion

           1
               Report on Consolidated Financial Statements for FY 2007 and FY 2006, Department of Transportation,
               Report Number FI-2008-011, November 13, 2007.
                                                                                    2


with no internal control material weaknesses. This signals to the public that the
Department is maintaining a mature and reliable financial environment to account
for its available financial resources of nearly $134 billion.

This would not have occurred without your emphasis and personal commitment to
improving financial management practices, along with that of your senior
leadership team, including the departmental Chief Financial Officer and the
Acting Federal Aviation Administrator. This commitment enabled the Department
to sustain clean audit opinions in the last 2 years and make significant progress
toward improving a long-standing concern associated with the Federal Aviation
Administration’s (FAA) Property, Plant, and Equipment Account.

The Department must, however, remain vigilant in sustaining good financial
management operations to ensure effective use of financial resources in an
environment of uncertain financial markets, volatile fuel prices, rising deficits, and
a softening economy. This environment presents a special challenge to the
Highway Trust Fund and Aviation Trust Fund revenue receipts, which financed
more than 70 percent of DOT’s operating costs. The following summarizes the
key financial management challenges that the Department continues to face.

Improving Financial Reporting

The Department needs to sustain clean audit opinions with no material
weaknesses, continue enhancing its financial management oversight, and improve
the quality of its financial information throughout the year. Several of the
significant deficiencies reported by KPMG - use of journal entries, analysis of
proprietary and budgetary account relationships, calculating grant accruals,
eliminating intradepartmental activity, and implementing managerial cost
accounting capabilities - have been reported as internal control deficiencies for
several years, especially for the DOT Operating Administrations funded by the
Highway Trust Fund. DOT needs to continue working to correct these internal
control deficiencies to ensure that financial records accurately reflect operational
results to support management decisions in today’s tight financial environment.
Correcting these long-standing deficiencies will also bring DOT into full
compliance with Federal Financial Management Improvement Act (FFMIA)
requirements.

Implementing New CIP Processes

The Department needs to ensure that FAA remains vigilant and continues to
implement new policies and procedures in accounting for Property, Plant, and
Equipment, especially Construction in Progress (CIP) transactions.         The
significant deficiency associated with accounting for FAA Property, Plant, and
                                                                               3


Equipment, including the CIP account, was reported as a material weakness in the
last three consecutive years and resulted in a qualified opinion on the DOT
consolidated financial statements in FY 2006. Similarly, DOT slipped to a
qualified opinion in FY 2000 because of a material weakness in accounting for
FAA Property, Plant, and Equipment. On both occasions, DOT and FAA had to
execute expensive corrective action plans to improve accounting for Property,
Plant, and Equipment, and to get back to an unqualified audit opinion.

Effectively Managing the Highway Trust Fund Resources

The Highway Trust Fund (HTF) is the primary source for financing highway
construction projects; it experienced a solvency problem during FY 2008. In
August, the Department worked closely with Congress to have $8 billion
transferred from the General Fund to help alleviate fund shortages. While the
Department is researching alternative funding sources, it also needs to ensure
effective use of available funds. As of September 30, 2008, DOT reported a total
of $80 billion in outstanding obligations, most of which were associated with
HTF-related grants. KPMG estimated that about $300 million of these obligations
were no longer needed and should have been released (de-obligated) for other use.
In today’s budget environment in which highway investment needs exceed
available resources, allowing unneeded obligations to sit idle leaves fewer funds
available for expanding and preserving National Highway System infrastructure.


KPMG FY 2008 Audit Report

KPMG reported seven internal control significant deficiencies, none of which
were believed to be material weaknesses, and four instances of potential or known
noncompliance with laws and regulations:

Significant Deficiencies

   1. Journal Entries and Account Relationships
   2. Property, Plant, and Equipment, including the Construction in Progress
      Account
   3. Grant Accruals
   4. Exchange Revenue
   5. Financial Reporting
   6. Undelivered Orders
   7. Information Technology Controls over Financial Systems and Applications
                                                                               4


Noncompliance with Laws and Regulations

   1.   Antideficiency Act
   2.   Federal Financial Management Improvement Act of 1996
   3.   Federal Managers’ Financial Integrity Act of 1982
   4.   Improper Payments Information Act of 2002

KPMG made 25 recommendations for corrective action; we agree with all and,
therefore, are making no additional recommendations. DOT officials concurred
with the significant deficiencies and potential or known instances of
noncompliance, and committed to developing a detailed action plan to address the
findings contained in the report no later than December 29, 2008. In accordance
with DOT Order 8000.1C, the corrective actions taken in response to the findings
are subject to follow-up. Please provide us with actual amounts de-obligated as a
result of actions taken in response to the “Undelivered Orders” significant
deficiency by June 30, 2009.

In our opinion, the audit work performed by KPMG complied with applicable
standards.

We appreciate the cooperation and assistance of DOT and KPMG representatives.
If we can answer any questions, please call me at (202) 366-1959; David Dobbs,
Principal Assistant Inspector General for Auditing and Evaluation, at
(202) 366-1427; or Rebecca Leng, Assistant Inspector General for Financial and
Information Technology Audits, at (202) 366-1407.

Attachment
                                        #
